  _~I't\ '::EHVICeS



                           DEPARTMENT OF
                           DEPARTMENT OFHEALTH
                                         HEALTH&&HUMAN
                                                  HUAN SERVICES
                                                       SERVICES                                                            Office of
                                                                                                                           Office of Inspector General
                                                                                                                                               General

".. ':
( g-t'\'

 '",
       -llf"d30
                                                                                                                           Washington, D.C. 20201
                                                                                                                                       D.C. 20201





                                                                      FEB 18 2009

                                                                      FEB 18  2009

                  TO:                Charlene Frizzera
                                     Acting Administrator
                                     cente~ ~d Services

                                     cente~ ~d      Services


                  FROM:           ~Ph
                               to:;~ty
                                      ~Ph E.E.Vengrin
                               ß:;~ty Inspector
                                               Vengrin
                                          Inspector General
                                                 General forforAudit
                                                                AuditServices

                                                                      Services


                  SUBJECT: Review
                            ReviewofConnecticuts    Community
                                     of Connecticut's Community Based
                                                                  BasedMedicaid
                                                                       MedicaidAdministrative
                                                                                Administrative Claim for
                            State Fiscal Year
                                         Year 2004
                                              2004 (A-O
                                                    (A-O11-06-00008)
                                                          -06-00008)



                  Attached is an advance copy of our final report on the Community Based Medicaid
                  Administrative Claim submitted by the Connecticut Department of     of Social Services (the State
                  agency) for
                  agency) for State
                              State fiscal
                                     fiscal year
                                            year(FY)
                                                 (FY)2004.
                                                      2004. We will
                                                               wil issue
                                                                    issue this
                                                                           this report
                                                                                 report to
                                                                                         to the
                                                                                             the State
                                                                                                 State agency
                                                                                                       agency within
                  5 business days.

                  The    State
                  The State       agency,
                            agency,             through
                                    through contracts  awardedcontracts      awarded
                                                               by the Connecticut            of the Connecticut Department of Mental
                                                                                  Departmentby                                             Health
                                                                                                                                   Mental Health

                  and Addiction Services (DMHAS), purchases administrative case management activities from
                  organizations that
                  organizations          that provide
                                                 provide mentalmental health
                                                                          health and and related
                                                                                            related services.
                                                                                                     services. For
                                                                                                               For State
                                                                                                                    State FY 2004, the State
                  agency
                  agency beganbegan     claiming
                               claiming Federal          Federal
                                                 reimbursement for thereimbursement
                                                                       costs of 
              for the costs of these activities through a
                  Community
                  Community Based     Based Medicaid
                                                  Medicaid Administrative
                                                                  Administrative Claim.     Claim. To To compute
                                                                                                         compute the costs claimed, the State
                  agency used used aa random moment timestudy (RMS) of                            of employee activities at the 81 contracted
                  organizations that provided these             these activities.

                             agency claimed $9.3
                  The State agency            $9.3 million for State FY 2004 as a prior-period adjustment to the
                                     June 30,
                  quarter that ended June  30, 2005.
                                                2005. OnOn February
                                                           February 3, 3, 2006,
                                                                          2006, the Centers
                                                                                    Centers for
                                                                                              for Medicare
                                                                                                  Medicare && Medicaid
                  Services
                  Services (CMS)   issued aa letter of deferral
                            (CMS) issued               deferral to
                                                                to the
                                                                   the State
                                                                        State agency
                                                                              agency for
                                                                                      for the
                                                                                           the $9.3
                                                                                               $9.3 million
                                                                                                    million claimed.
                                                                                                            claimed. CMS
                  subsequently requested that we conduct this review.

                  Our objective was
                                was to determine whether the State agency's
                                                                   agency's Community
                                                                            Community Based
                                                                                      Based Medicaid
                                                                                             Medicaid
                  Administrative Claim for State FY 2004 complied with Federal requirements.

                  The State agency's Community
                                     Community Based
                                                Based Medicaid
                                                      Medicaid Administrative
                                                                 Administrative Claim
                                                                                Claim may
                                                                                      may not
                                                                                          not have
                                                                                              have fully
                                                                                                    fully
                  complied with Federal
                                Federal requirements.
                                        requirements. Specifically:

                      •.     The
                           The   Stateagency's
                               State   agency'scalculation
                                                calculationwas
                                                            wasbased
                                                                basedononthe
                                                                          theMedicaid-allocable
                                                                              Medicaid-allocablecosts
                                                                                                 costs incurred
                                                                                                        incurred by
                                                                                                                 by the
                                                                                                                    the
                            81 contracted
                            81 contracted organizations
                                          organizations ($149,387,577),
                                                        ($149,387,577), which
                                                                        which exceeded
                                                                              exceeded by
                                                                                       by $19.7
                                                                                          $19.7 million
                                                                                                milion the total
Page 2 – Charlene Frizzera


       amount that DMHAS actually paid to these contracted organizations ($129,663,145) for
       both Medicaid and non-Medicaid services and activities. We were unable to determine
       the impact of overstating the cost base on the Community Based Medicaid
       Administrative Claim because of other errors in the calculation.

   •   The documentation from the RMS was inadequate for us to determine whether the
       administrative case management activities were allowable and whether they were
       provided to Medicaid applicants or eligibles.

   •   The allocation method that the State agency used to identify and determine the amount of
       administrative case management activities contained deviations from acceptable
       statistical sampling practices.

We were unable to quantify the effect of these omissions and deviations from acceptable
practices. Specifically, these omissions and deviations affected both the accuracy of the
calculations of the costs allocated to the Community Based Medicaid Administrative Claim and
the validity of the RMS used to allocate these costs. We are therefore unable to express an
opinion on the allowability of the State agency’s $9.3 million Community Based Medicaid
Administrative Claim for State FY 2004.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its Community Based Medicaid Administrative Claim complied with
Federal requirements.

We recommend that the State agency:

   •   draft its future contracts with the 81 contracted organizations to identify and properly
       value the amount of administrative case management activities purchased through the
       contracts and subsequently claimed on the Community Based Medicaid Administrative
       Claim and

   •   work with CMS to determine what portion of the Community Based Medicaid
       Administrative Claim of $9,270,413 for the year that ended June 30, 2004, was allowable
       under Federal requirements by, at a minimum:

          o limiting the cost base used to calculate the Community Based Medicaid
            Administrative Claim to the amount that DMHAS actually paid the 81 contracted
            organizations,

          o obtaining sufficient documentation from the RMS to determine the allowability of
            the activities used to allocate the costs, and

          o following acceptable statistical sampling practices.
Page 3 – Charlene Frizzera


In written comments on our draft report, the State agency generally agreed with our
recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through e-mail at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-06-00008.


Attachment
(~
 tJSEkVIC8S



                                    OF HEALTH
                         DEPARTMENT OF HEALTH & HUMAN SERVICES
                                              & HUMAN SERVICES                                        OFFICE
                                                                                                      OFFICE OF
                                                                                                             OF INSPECTOR
                                                                                                                INSPECTOR GENERAL

~-+;~'z\-                                                                                                       Offce
                                                                                                                Officeof
                                                                                                                       ofAudit
                                                                                                                          Audit Services
                                                                                                                                Services
                                                                                                                Region
                                                                                                                Region II
                                                                                                                John F. Kennedy Federal Building
                                                                                                                                         Building
                                                                                                                Boston, MA 02203
                                                                                                                             02203
                                                               FEB    20
                                                               FEB 20 2009

                                                                       2009                                     (617) 565-2684
                                                                                                                      565-2684

              Report Number:
                     Number: A-01-06-00008
                             A-OI-06-00008

              Mr. Michael P. Starkowski
              Commissioner
              Deparment
              Department of
                          ofSocial
                            Social Services
                                    Services
              25 Sigourney Street
              Hartford, Connecticut 06106
              Hartford, Connecticut

              Dear Mr. Starkowski:

              Enclosed is the U.S. Department of Health and Human
              Enclosed is the U.S. Department of                                            Human Services
                                                                                                  Services (HHS),
                                                                                                            (HHS),Office
                                                                                                                   Offce of
                                                                                                                          ofInspector
                                                                                                                             Inspector
              General (DIG),
              General       (OIG), finalfinal report
                                                report entitled
                                                           entitled "Review
                                                                          "Review of        Connecticut'sCommunity
                                                                                        ofConnecticuts   Community Based
                                                                                                                     Based Medicaid
                                                                                                                             Medicaid
              Administrative
              Administrative           Claim
                             Claim for State      for
                                             Fiscal YearState
                                                         2004." WeFiscal    Year
                                                                    wil forward      2004."
                                                                                a copy of 
    We will forward a copy of this report to the
              HHS
              HHS      action
                  action official official
                                  noted on the noted
                                               following on
                                                         page the   following
                                                               for review and        page for review and any action deemed necessary.

              The HHSHHS action official  offcial willwillmake
                                                             makefinal final determination
                                                                               determination asas to
                                                                                                   to actions
                                                                                                      actions taken
                                                                                                               taken on
                                                                                                                     on all
                                                                                                                        all matters
                                                                                                                            matters reported.
                                                                                                                                     reported.
              We
              We    request
                 request that youthat   you
                                  respond      respond
                                          to this            to this
                                                  official within       official
                                                                  30 days           within
                                                                          from the date of 30 days from the date of this letter.
                                                                                                                            letter. Your
              response should present any comments or additional information that you believe may have a
              bearing on the final determination.

              Pursuant to the Freedom ofInformation             U.S.c. § 552, GIG
                                         of Information Act, 5 U.S.C.          OIG reports generally are made
              available to
                        to the public to the extent that information in the report is not subject to exemptions in
              the Act.
                  Act. Accordingly,
                       Accordingly, this report
                                           report wil
                                                  willbe
                                                       beposted
                                                          postedon
                                                                 onthe
                                                                    the Internet
                                                                         Internet at
                                                                                   at http://oig.hhs.gov.
                                                                                      http://oig.hhs.gov.

              If you havehave any questions or comments about this report, please do not hesitate to call me, or contact
              Curtis
              Curtis Roy,Roy, Audit
                                Audit Manager,
                                       Manager, at (617)
                                                   (617) 565-9281
                                                         565-9281 or
                                                                  or through
                                                                     through e-mail
                                                                             e-mail at
                                                                                    at Curtis.Roy@oig.hhs.gov.
                                                                                       Curis.Roy($oig.hhs.gov.
              Please     refer
              Please refer to 
 to report number A-01-06-00008
                                                 A-OI-06-00008 in all correspondence.

                                                                         Sincerely,

                                                                       ')11,~:
                                                                       <)j't':A!.4<J        9914(~r2-J
                                                                                               A(~r2J
                                                                         Michael J. Armstrong
                                                                         Regional Inspector General
                                                                          for Audit Services


              Enclosure
Page 2 – Mr. Michael P. Starkowski


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF CONNECTICUT’S
 COMMUNITY BASED MEDICAID
  ADMINISTRATIVE CLAIM FOR
   STATE FISCAL YEAR 2004




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                      A-01-06-00008
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Federal and State Governments jointly fund and administer the Medicaid program. Section
1903(a)(7) of the Social Security Act permits States to claim Federal reimbursement for
50 percent of the costs of Medicaid administrative activities that are necessary for the proper and
efficient administration of the State plan.

In Connecticut, the Department of Social Services (the State agency) administers the Medicaid
program. The State agency, through grant-in-aid contracts awarded by the Connecticut
Department of Mental Health and Addiction Services (DMHAS), purchases administrative case
management activities from organizations that provide mental health and related services. For
State fiscal year (FY) 2004, the State agency began claiming Federal reimbursement for the costs
of these purchased administrative activities on the Centers for Medicare & Medicaid Services
(CMS) Form CMS-64 through a process referred to as the Community Based Medicaid
Administrative Claim. To compute the Community Based Medicaid Administrative Claim, the
State agency used a random moment timestudy (RMS) of employee activities at the 81
contracted organizations that provided these activities.

The State agency claimed $9.3 million for Federal reimbursement of Community Based
Medicaid Administrative Claim-related costs during the State FY that ended June 30, 2004, as a
prior-period adjustment to the quarter that ended June 30, 2005. On February 3, 2006, CMS
issued a letter of deferral to the State agency for the $9.3 million claimed. CMS subsequently
requested that we conduct this review.

OBJECTIVE

Our objective was to determine whether the State agency’s Community Based Medicaid
Administrative Claim for State FY 2004 complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s Community Based Medicaid Administrative Claim may not have fully
complied with Federal requirements. Specifically:

   •   The State agency’s calculation was based on the Medicaid-allocable costs incurred by the
       81 contracted organizations ($149,387,577), which exceeded by $19.7 million the total
       amount that DMHAS actually paid to these contracted organizations ($129,663,145) for
       both Medicaid and non-Medicaid services and activities. We were unable to determine
       the impact of overstating the cost base on the Community Based Medicaid
       Administrative Claim because of other errors in the calculation.

   •   The documentation from the RMS was inadequate for us to determine whether the
       administrative case management activities were allowable and whether they were
       provided to Medicaid applicants or eligibles.


                                                 i
   •   The allocation method that the State agency used to identify and determine the amount of
       administrative case management activities contained deviations from acceptable
       statistical sampling practices.

We were unable to quantify the effect of these omissions and deviations from acceptable
practices. Specifically, these omissions and deviations affected both the accuracy of the
calculations of the costs allocated to the Community Based Medicaid Administrative Claim and
the validity of the RMS used to allocate these costs. We are therefore unable to express an
opinion on the allowability of the State agency’s $9.3 million Community Based Medicaid
Administrative Claim for State FY 2004.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its Community Based Medicaid Administrative Claim complied with
Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   draft its future contracts with the 81 contracted organizations to identify and properly
       value the amount of administrative case management activities purchased through the
       contracts and subsequently claimed on the Community Based Medicaid Administrative
       Claim and

   •   work with CMS to determine what portion of the Community Based Medicaid
       Administrative Claim of $9,270,413 for the year that ended June 30, 2004, was allowable
       under Federal requirements by, at a minimum:

          o limiting the cost base used to calculate the Community Based Medicaid
            Administrative Claim to the amount that DMHAS actually paid the 81 contracted
            organizations,

          o obtaining sufficient documentation from the RMS to determine the allowability of
            the activities used to allocate the costs, and

          o following acceptable statistical sampling practices.

DEPARTMENT OF SOCIAL SERVICES COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations. The State agency’s comments are included in their entirety as Appendix D.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program........................................................................................1
              Connecticut’s Community Based Medicaid Administrative Claim.............1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FEDERAL REQUIREMENTS................................................................................4

          NONCOMPLIANCE WITH FEDERAL REQUIREMENTS.................................4
              Overstated Cost Base ...................................................................................4
              Inadequate Documentation ..........................................................................5
              Deviations From Acceptable Statistical Sampling Practices .......................6

          EFFECT OF STATE AGENCY’S OMISSIONS AND DEVIATIONS.................7

          LACK OF ADEQUATE PROCEDURES...............................................................7

          RECOMMENDATIONS.........................................................................................7

          DEPARTMENT OF SOCIAL SERVICES COMMENTS .....................................8

APPENDIXES

          A – DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S
               COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM
               FOR FISCAL YEAR 2004

          B – RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR CONNECTICUT’S
              COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM

          C – CALCULATION OF CONNECTICUT’S COMMUNITY BASED MEDICAID
               ADMINISTRATIVE CLAIM FOR FISCAL YEAR 2004

          D – DEPARTMENT OF SOCIAL SERVICES COMMENTS




                                                                   iii
                                                 INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1903(a)(7) of the Act permits States to claim Federal reimbursement for 50 percent of
the costs of Medicaid administrative activities that are necessary for the proper and efficient
administration of the State plan. States submit expenditures for administrative activities for
reimbursement on the Form CMS-64, “Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program” (CMS-64).

Connecticut’s Community Based Medicaid Administrative Claim

In Connecticut, the Department of Social Services (the State agency) administers the Medicaid
program. The State agency, through grants-in-aid awarded by the Connecticut Department of
Mental Health and Addiction Services (DMHAS), purchases Medicaid administrative case
management activities from organizations that provide mental health and related services. The
contracted organizations that provide these purchased services include clinics and shelters,
components of universities and hospital systems, religious and service organizations, and a local
government (Appendix A).

For State fiscal year (FY) 2004, the State agency began claiming Federal reimbursement for the
costs of these purchased administrative activities on the CMS-64 through a process referred to as
the Community Based Medicaid Administrative Claim. 1 To compute the Community Based
Medicaid Administrative Claim, the State agency conducted a random moment timestudy (RMS)
of the activities of the employees of each contracted organization to determine the portion of
these activities that were allocable to the Medicaid program (Appendix B). This RMS included a
multistage sample consisting of (1) a random selection of 750 contracted organization employees
and (2) a random selection of a moment of time from each of these employees’ work schedules.
The State agency applied the results of the RMS to the contracted organizations’ reported
Medicaid-allocable costs for the State FY that ended June 30, 2004 (Appendixes A and C).

The State agency’s initial Community Based Medicaid Administrative Claim totaled $9.3 million
for the State FY that ended June 30, 2004. The State agency claimed this amount at 50-percent

1
 In 2004, the State agency contracted with a third-party contractor to develop the Community Based Medicaid
Administrative Claim. This contingency fee contract was valued at 8 percent of new Federal funds generated by the
contractor’s efforts. The State agency did not claim the contingency fee for Federal reimbursement.


                                                        1
Federal financial participation (FFP) as a prior-period adjustment on its CMS-64 for the quarter
that ended June 30, 2005. The State agency’s claim for FFP was based on the assumption that
DMHAS purchased administrative case management activities from the 81 contracted
organizations. The State’s share of the Community Based Medicaid Administrative Claim was
the portion of the $129,663,145 grant-in-aid contract payments that DMHAS paid for
administrative case management activities.

On February 3, 2006, CMS issued a letter of deferral to the State agency for the $9.3 million in
costs claimed for Federal reimbursement. CMS subsequently requested that we review the
Community Based Medicaid Administrative Claim because it was the State agency’s first claim
to include these types of administrative costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s Community Based Medicaid
Administrative Claim for State FY 2004 complied with Federal requirements.

Scope

We reviewed the $9.3 million in Community Based Medicaid Administrative Claim costs that
the State agency claimed as a prior-period adjustment for the State FY that ended June 30, 2004,
on its CMS-64 report for the quarter that ended June 30, 2005. We will report the results of our
review of the Community Based Medicaid Administrative Claims totaling $19.9 million for the
quarters that ended December 31, 2005, March 31, 2006, and June 30, 2006, in a separate report.

Our objective did not require an understanding or assessment of the State agency’s internal
control structure. We limited our review to the State agency’s preparation of the Community
Based Medicaid Administrative Claim.

We performed our fieldwork from June 2006 through October 2007 at the State agency and
DMHAS in Hartford, Connecticut, and at several contracted organizations throughout the State
whose costs were used to develop the Community Based Medicaid Administrative Claim.

Methodology

To accomplish our audit objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed officials and reviewed policies with the State agency, DMHAS, and seven
        contracted organizations whose costs were used to develop the Community Based
        Medicaid Administrative Claim;




                                                2
   •   reviewed the State agency’s oversight of the activities of the contractor that prepared the
       claim;

   •   reviewed the grant-in-aid contracts between DMHAS and the 81 contracted organizations
       whose costs were included in the Community Based Medicaid Administrative Claim;

   •   reviewed the cost allocation plan approved by the Division of Cost Allocation of the
       U.S. Department of Health and Human Services and the State agency’s methodology for
       allocating administrative costs;

   •   traced the 81 contracted organizations’ reported costs used to calculate the Community
       Based Medicaid Administrative Claim to supporting financial reports;

   •   traced the 81 DMHAS grant-in-aid payments to the annual financial reports of the 81
       contracted organizations;

   •   reviewed the documentation supporting the activities sampled in the RMS;

   •   reviewed the RMS for statistical validity; and

   •   reviewed the Community Based Medicaid Administrative Claim calculations for
       mathematical accuracy.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency’s Community Based Medicaid Administrative Claim may not have fully
complied with Federal requirements. Specifically:

   •   The State agency’s calculation was based on the Medicaid-allocable costs incurred by the
       81 contracted organizations ($149,387,577), which exceeded by $19.7 million the total
       amount that DMHAS actually paid to these contracted organizations ($129,663,145) for
       both Medicaid and non-Medicaid services and activities. We were unable to determine
       the impact of overstating the cost base on the Community Based Medicaid
       Administrative Claim because of other errors in the calculation.

   •   The documentation from the RMS was inadequate for us to determine whether the
       administrative case management activities were allowable and whether they were
       provided to Medicaid applicants or eligibles.




                                                3
   •   The allocation method that the State agency used to identify and determine the amount of
       administrative case management activities contained deviations from acceptable
       statistical sampling practices.

We were unable to quantify the effect of these omissions and deviations from acceptable
practices. Specifically, these omissions and deviations affected both the accuracy of the
calculations of the costs allocated to the Community Based Medicaid Administrative Claim and
the validity of the RMS used to allocate these costs. We are therefore unable to express an
opinion on the allowability of the State agency’s $9.3 million Community Based Medicaid
Administrative Claim for State FY 2004.

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its Community Based Medicaid Administrative Claim complied with
Federal requirements.

FEDERAL REQUIREMENTS

The CMS “State Medicaid Manual,” section 4302.2(G)(2), states:

       When FFP is claimed for any functions performed as case management
       administrative activities under § 1903(a) of the Act, documentation must clearly
       demonstrate that the activities were provided to Medicaid applicants or eligibles,
       and were in some way connected with determining eligibility or administering
       services covered under the State plan.

Office of Management and Budget Circular A-87, Attachment B, section h.6.a, states that
sampling methods used to allocate salaries to Federal awards must meet acceptable statistical
sampling methods and the results must be statistically valid.

California Department of Health Services, Departmental Appeals Board Decision No. 1606
(1996), noted that “ . . . backcasting would be appropriate only if it can be established that
circumstances in the sampled period are not substantially different than those in the retroactive
claim period.”

NONCOMPLIANCE WITH FEDERAL REQUIREMENTS

Overstated Cost Base

The State agency used an overstated cost base when estimating the DMHAS expenditures on
which the Community Based Medicaid Administrative Claim was based. The maximum cost
base that the State agency could have used was $129,663,145, the total payments that DMHAS
made for the 81 contracts. The contracts included the provision of both Medicaid and non-
Medicaid services and activities. Accordingly, the cost base should have been further limited to
Medicaid allocable services and activities and thus should have been less than DMHAS’s total
payments ($129,663,145). However, the cost base that the State agency used, $149,387,577,
exceeded DMHAS’s total payments by $19.7 million. We were unable to determine the impact



                                                 4
of this overstatement on the estimate of DMHAS expenditures for administrative case
management activities because of the other errors in the Community Based Medicaid
Administrative Claim calculation.

Inadequate Documentation

We cannot express an opinion on the allowability of the State agency’s Community Based
Medicaid Administrative Claim because the State agency provided us with inadequate support
for the RMS that it used to calculate its claim. Specifically:

   •   The RMS that the State agency used to calculate its Community Based Medicaid
       Administrative Claim was not supported by adequate documentation. Specifically, the
       only documentation that the State agency, the State agency’s contractor, and the
       contracted organizations maintained to support the RMS was the telephone pollster’s
       notes, their related classifications, and definitions of the classifications (Appendix B).
       However, some of the notes or activity code descriptions contained insufficient detail to
       demonstrate whether the activities were provided solely to Medicaid applicants or
       eligibles.

   •   Because the documentation did not clearly demonstrate to whom the activities were
       provided and whether the individual was a Medicaid applicant or eligible, we could not
       determine whether an administrative case management activity was part of a direct
       service that had already been billed to Medicaid or another Federal program. The lack of
       documentation raised the possibility that the State agency might have received duplicate
       reimbursement for certain administrative activities by separating or “unbundling” them
       from the related direct services.

   •   The State agency used a Medicaid eligibility rate based on payer statistics for DMHAS
       clients served by approximately 180 contracted organizations throughout the State
       (Appendix C). Because the RMS documentation that the State agency provided did not
       indicate the payer status (e.g., Medicare, Medicaid, private insurance, or self-pay) of the
       clients involved with the sampled activities, we have no assurance that the DMHAS-wide
       rate based on data from 180 contracted organizations was reflective of the clients of the
       81 contracted organizations.

   •   Four of the eighty-one contracted organizations whose costs were included in the cost
       base of the Community Based Medicaid Administrative Claim had State-funded grant-in-
       aid contracts that did not include the provision of administrative case management
       activities. The State agency could not provide other documentation that these four
       contracted organizations were paid to provide Medicaid administrative case management
       activities. As a result, we have no assurance that the costs associated with these four
       contracted organizations relate to Medicaid administrative case management activities
       provided to Medicaid applicants or eligibles through the grant-in-aid contracts.




                                                5
Deviations From Acceptable Statistical Sampling Practices

The State agency used an allocation method that contained deviations from acceptable statistical
sampling practices, as the following examples illustrate:

   •   Acceptable statistical sampling practices involve using a random number generator to
       produce (1) a set of random numbers used to select the sample and (2) the “seed number”
       needed to recreate the random number selection so that the sample can be independently
       validated. The State agency did not retain either the random numbers used or a seed
       number.

   •   Acceptable statistical sampling practices call for using the appropriate estimation formula
       for the type of sample selected. The State agency used a single-stage estimation formula,
       which is intended for use with a simple random sample, to appraise a sample selected as a
       multistage sample, thus potentially biasing the sample results.

   •   Acceptable statistical sampling practices reduce the potential for bias by ensuring that
       only eligible employees are selected for participation in an RMS, study participants do
       not have access to potentially biasing information, and employees are not notified in
       advance. The State agency’s methodology contained the following departures from these
       acceptable practices to reduce bias:

           o Some of the 81 contracted organizations included ineligible employees such as
             security guards, cafeteria workers, and group home workers on the employee
             work schedules that they provided to the State agency. Because these employees
             spent 100 percent of their time on indirect activities, their inclusion created a bias
             that contributed to the high general administration response rate of 40 percent.

           o Instructional materials that the State agency provided to the contracted
             organizations stated that compliance with the RMS would help generate
             additional funds to the State and the contracted organizations.

           o Before the RMS was conducted, the State agency provided each of the 81
             contracted organizations with the names and contact times of employees who
             would be surveyed by the RMS pollster, thus potentially influencing the
             employees’ assigned duties at the time they were polled. Employees with contact
             times outside of normal business hours were instructed in advance to telephone in
             their activities at the appointed contact time.

   •   Acceptable statistical sampling practices ensure that “backcasting” methods are used only
       when the two time periods are not significantly different. The State agency’s RMS
       sampled employee activities during June through August 2005 and applied the results to
       costs incurred for the State FY that ended June 30, 2004. The State agency could not
       demonstrate that the Medicaid eligibility rates in 2005 were the same as those in 2004 and
       therefore could not provide assurance that the two time periods were not significantly
       different.


                                                 6
   •   Acceptable statistical sampling practices include providing appraisal results (i.e., precision
       of the estimates) to provide some assurance that the sampled items represent the population
       as a whole. The State agency was unable to provide appraisal results to show that the 750
       sampled items properly reflected the approximately 107 million moments in the population.

   •   Acceptable statistical sampling practices call for proper treatment of invalid responses.
       Of the 750 RMS responses, 117 were deemed to be invalid and therefore were removed
       from the sample. Of the 117 invalid responses, 70 were related to employee
       nonresponses. Although the State agency removed these nonresponses from the sample
       results, it did not remove the associated employee costs. As a result, the State agency
       overstated the amount of general and administrative costs allocated to the Community
       Based Medicaid Administrative Claim.

Because of these deviations from acceptable statistical sampling practices, the State agency was
unable to provide reasonable assurance that its statistical methodology was valid.

EFFECT OF STATE AGENCY’S OMISSIONS AND DEVIATIONS

We were unable to quantify the effect of the omissions and deviations from acceptable practices
that the State agency made when calculating the Community Based Medicaid Administrative
Claim. Specifically, the omissions and deviations affected both the accuracy of the calculations
of the costs allocated to the Community Based Medicaid Administrative Claim and the validity
of the RMS used to allocate these costs. We are therefore unable to express an opinion on the
allowability of the State agency’s $9.3 million Community Based Medicaid Administrative
Claim for State FY 2004.

LACK OF ADEQUATE PROCEDURES

These omissions and deviations occurred because the State agency did not establish adequate
procedures to ensure that its Community Based Medicaid Administrative Claim complied with
Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   draft its future contracts with the 81 contracted organizations to identify and properly
       value the amount of administrative case management activities purchased through the
       contracts and subsequently claimed on the Community Based Medicaid Administrative
       Claim and

   •   work with CMS to determine what portion of the Community Based Medicaid
       Administrative Claim of $9,270,413 for the year that ended June 30, 2004, was allowable
       under Federal requirements by, at a minimum:




                                                7
           o limiting the cost base used to calculate the Community Based Medicaid
             Administrative Claim to the amount that DMHAS actually paid the 81 contracted
             organizations,

           o obtaining sufficient documentation from the RMS to determine the allowability of
             the activities used to allocate the costs, and

           o following acceptable statistical sampling practices.

DEPARTMENT OF SOCIAL SERVICES COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations. Specifically, the State agency said that it would work with CMS to determine
what portion of the Community Based Medicaid Administrative Claim for the year that ended
June 30, 2004, was allowable under Federal requirements. The State agency also said that, after
it reaches agreement with CMS on procedures for claiming these administrative costs, the State
agency would use those procedures to recalculate any additional claims already submitted and to
calculate any future claims. In addition, the State agency said that, once agreement is reached, it
would modify its contracts with the 81 organizations, if required, to better identify the dollars
associated with administrative case management activities.

The State agency’s comments are included in their entirety as Appendix D.




                                                 8
APPENDIXES
                                                                                                                                                APPENDIX A
                                                                                                                                                  Page 1 of 3
                    DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S
           COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR FISCAL YEAR 2004



                                                                       Federal         State          Medicaid                 Provider
                                      Provider Name                     Share      Grant-in-Aid    Allocable Costs 1             Type
                1    Ability Beyond Disability                           $22,743      $1,864,150           $366,484    Clinic/Shelter
                2    Advanced Behavioral Health                         $282,871      $4,763,025         $4,558,305    Clinic/Shelter
                3    Alcohol and Drug Recovery Center                   $455,810      $2,690,090         $7,345,127    Clinic/Shelter
                4    ALSO Cornerstone, Inc.                              $99,283      $2,361,067         $1,599,893    Clinic/Shelter
                5    Applied Behavioral Rehab and Research Institute      $6,504        $144,316           $104,814    Clinic/Shelter
                6    APT Foundation                                     $286,588      $2,219,694         $4,618,199    Clinic/Shelter
                7    Asian Family Services                                $3,002         $93,776            $48,367    Clinic/Shelter
                8    Bridge House                                        $45,649      $1,183,410           $735,612    Clinic/Shelter
                9    Bridgeport - Central CT Coast YMCA, Inc.             $4,648        $219,515            $74,902    Service Organization
                10   Bridges Community Support System                   $230,601      $5,157,341         $3,716,008    Clinic/Shelter
                11   Catholic Charities of Fairfield County              $33,246        $456,022           $535,748    Religious Organization
                12   Catholic Charities Family Services - Waterbury      $35,487      $1,099,757           $571,856    Religious Organization
                13   Center for Human Development, Inc.                 $211,779      $3,782,836         $3,412,709    Clinic/Shelter
                14   Centers for City Churches                            $7,179        $116,777           $115,681    Religious Organization
                15   Central Naugatuck Valley Help                      $105,955      $1,449,535         $1,707,410    Clinic/Shelter
                16   Chemical Abuse Service Agency, Inc.                 $91,874        $789,165         $1,480,500    Clinic/Shelter
                17   Chrysalis Center, Inc.                             $141,836      $2,869,129         $2,285,614    Clinic/Shelter
                18   Columbus House                                      $45,299      $1,053,081           $729,973    Clinic/Shelter
                19   Community Health Center                              $3,374         $46,616            $54,366    Clinic/Shelter
                20   Community Health Resources, Inc.                   $199,088    $10,632,992          $3,208,187    Clinic/Shelter
                21   Community Mental Health Affiliates                 $335,222      $8,315,958         $5,401,915    Clinic/Shelter
                22   Community Prevention & Addiction Services           $89,318        $483,627         $1,439,317    Clinic/Shelter
                23   Community Renewal Team (no 2004 contract)                                                         Clinic/Shelter
                24   Connecticut Counseling Centers                     $248,422        $515,765         $4,003,181    Clinic/Shelter
                25   Connecticut Renaissance                            $164,289        $948,057         $2,647,425    Clinic/Shelter
                26   Connection, Inc.                                    $99,716      $1,459,248         $1,606,862    Clinic/Shelter


1
The State agency computed Medicaid allocable costs to be a contracted organization’s annual expenditures less unallowable expenditures (per Office of
Management and Budget Circular A-87), indirect costs, and supporting Federal funds.
                                                                                                                               APPENDIX A
                                                                                                                                 Page 2 of 3
         DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S
COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR FISCAL YEAR 2004

                                                      Federal         State          Medicaid                 Provider
                       Provider Name                   Share      Grant-in-Aid    Allocable Costs 1             Type
  27   Continuum of Care, Inc.                         $150,539      $2,777,815         $2,425,851    University
  28   Coordinating Council for Children in Crisis       $3,808         $18,763            $61,363    Clinic/Shelter
  29   Crossroads                                      $153,192        $674,710         $2,468,598    Clinic/Shelter
  30   CTE                                              $10,140              $0           $163,405    Clinic/Shelter
  31   Dixwell Newhallville Community Mental Health     $28,004        $305,789           $451,268    Clinic/Shelter
  32   Fairfield Community Services                      $2,770         $28,401            $44,643    Clinic/Shelter
  33   Family & Children Agency, Inc.                   $23,945        $291,488           $385,845    Clinic/Shelter
  34   Farrell Treatment Center                         $34,272         $94,534           $552,278    Clinic/Shelter
  35   First Step                                      $120,897      $3,588,156         $1,948,194    Clinic/Shelter
  36   Friendship Service Center                         $6,225         $48,164           $100,315    Religious Organization
  37   Gilead                                          $217,763      $4,664,465         $3,509,131    Clinic/Shelter
  38   Goodwill                                         $64,141      $1,298,438         $1,033,603    Clinic/Shelter
  39   Hall-Brooke Behavioral Health Services           $10,110        $531,574           $162,923    Hospital
  40   Harbor Health                                   $253,641      $3,954,406         $4,087,280    Clinic/Shelter
  41   Hartford Behavioral Health                       $59,648        $910,356           $961,187    Clinic/Shelter
  42   Hartford Dispensary                             $455,059      $1,272,252         $7,333,016    Clinic/Shelter
  43   Helping Hand Center                              $15,692         $87,498           $252,869    Clinic/Shelter
  44   Integrated Behavioral Health                     $89,299      $1,622,785         $1,438,998    Clinic/Shelter
  45   Inter-Community MH Group                        $291,882      $4,095,566         $4,703,524    Clinic/Shelter
  46   Interlude, Inc.                                  $69,797        $807,350         $1,124,737    Clinic/Shelter
  47   Keystone House                                  $100,489      $2,096,368         $1,619,330    Clinic/Shelter
  48   Laurel House                                     $54,162      $1,118,672           $872,795    Clinic/Shelter
  49   Leeway Inc. (no 2004 contract)                                                                 Clinic/Shelter
  50   Liberty Community Services                       $52,472        $218,621           $845,562    Clinic/Shelter
  51   LMG Programs                                    $449,930      $1,235,326         $7,250,372    Clinic/Shelter
  52   Marrakech                                        $33,074        $532,970           $532,970    Clinic/Shelter
  53   McCall Foundation                               $114,034        $353,688         $1,837,595    Clinic/Shelter
  54   Mental Health Association of Connecticut        $349,162      $6,587,502         $5,626,546    Clinic/Shelter
  55   Mercy Housing Shelter Corp                       $67,985      $1,331,762         $1,095,542    Religious Organization
  56   Midwestern Connecticut Council on Alcoholism    $183,083        $778,011         $2,950,281    Clinic/Shelter
  57   Morris Foundation                                $76,656      $1,138,811         $1,235,276    Clinic/Shelter
                                                                                                                            APPENDIX A
                                                                                                                              Page 3 of 3
         DETAILS OF ORGANIZATIONS PARTICIPATING IN CONNECTICUT’S
COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM FOR FISCAL YEAR 2004

                                                  Federal          State          Medicaid                 Provider
                        Provider Name              Share       Grant-in-Aid    Allocable Costs 1             Type
  58   My Sister's Place, Inc.                      $77,642         $958,687         $1,251,151    Clinic/Shelter
  59   New Directions                               $27,039          $58,957           $435,722    Clinic/Shelter
  60   New Haven Home Recovery                      $31,133         $267,150           $501,696    Clinic/Shelter
  61   NW Center for Families                       $12,132          $92,134           $195,497    Clinic/Shelter
  62   Operation Hope                                $5,488         $314,802            $88,427    Clinic/Shelter
  63   Pathways                                     $55,889         $940,581           $900,625    Clinic/Shelter
  64   Perception Programs                          $64,665         $404,970         $1,042,044    Clinic/Shelter
  65   Positive Directions                           $8,564          $56,702           $137,997    Clinic/Shelter
  66   Regional Network of Programs                $366,932       $2,474,868         $5,912,901    Clinic/Shelter
  67   Reliance House                              $327,451       $5,079,165         $5,276,692    Clinic/Shelter
  68   Rushford                                    $509,153       $6,233,664         $8,204,721    Hospital
  69   St. Luke’s Lifeworks                         $76,360         $897,468         $1,230,504    Religious Organization
  70   St. Vincent DePaul Society MDT                $6,383         $128,806           $102,862    Religious Organization
  71   St. Vincent DePaul Society of Waterbury      $62,532       $1,323,080         $1,007,660    Religious Organization
  72   Stafford (Town of) Family Services            $8,222          $66,005          $132,489     Local Government
  73   Supportive Environmental Living Facility     $66,382       $1,217,278         $1,069,712    Clinic/Shelter
  74   Torrington Chapter of FISH                    $1,668          $28,928            $26,880    Clinic/Shelter
  75   United Community & Family Services           $10,128         $173,700           $163,213    Clinic/Shelter
  76   United Services                             $380,835       $5,594,025         $6,136,952    Clinic/Shelter
  77   Valley Mental Health Center                 $263,729       $5,174,871         $4,249,850    Clinic/Shelter
  78   Wheeler Clinic                               $78,787         $556,472         $1,269,612    Clinic/Shelter
  79   Yale University Child Study Center            $6,983         $112,533           $112,533    University
  80   Yale University Hamden Behavioral Health     $28,740         $276,329           $463,122    University
  81   YWCA                                          $1,922          $52,780            $30,963    Service Organization
        Total                                     $9,270,413    $129,663,145      $149,387,577
                                                                                                                       APPENDIX B
                                                                                                                         Page 1 of 2
                                     RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR
                CONNECTICUT’S COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM
                                                                                                      Included in Community    Number of
                                     Activity Code Description                                            Based Medicaid         RMS1
                                                                                                       Administrative Claim?   Responses
(1) Direct Medical Services is used for direct medical care, treatment, and/or counseling
services, including medical and mental health assessments and evaluations to correct or
                                                                                                                No                58
ameliorate a specific condition. Includes all related paperwork, clerical activities, or staff travel
required to perform these activities.
(2) Direct Nonmedical Services is used for activities that are not medical in nature, such as
education, employment, job training, or social services provided to clients. Includes all related               No                38
paperwork, clerical activities, or staff travel required to perform these activities.
(3) Targeted Case Management (TCM) is used for services that assist and enable clients to
gain access to needed medical, social, educational, or other services, including assessment,
                                                                                                                No                74
service planning, service linkage, ongoing monitoring, ongoing clinical support, and advocacy
services provided to clients.
(4) Referral, Coordination, and Monitoring of Medical Services covers the linking of
individuals and families with Medicaid service providers to plan, carry out, and maintain a                     Yes               57
health service plan (not billable TCM).
(5) Referral, Coordination, and Monitoring of Nonmedical Services covers the linking of
individuals and families with providers to plan, carry out, and maintain a non-health related                   No                24
service plan (not billable TCM).
(6) Client Assistance To Access Medicaid Services includes arranging for specific provisions,
such as transportation or translation assistance, that are necessary for an individual or family to             Yes                5
access Medicaid services.
(7) Client Assistance To Access Non-Medicaid Services includes arranging for specific
provisions, such as transportation or translation assistance, that are necessary for an individual or           No                 4
family to access non-Medicaid educational and social services.
(8) Outreach for Medicaid Services is for activities that inform individuals about Medicaid and
how to access Medicaid and related services and about the importance of accessing medical,
mental health, and alcohol and drug services and maintaining a routine place for health care.                   Yes                4
Activities include bringing persons into the Medicaid system for the purpose of determining
eligibility and arranging for the provision of medical and other health-related services.
                                                                                                                     APPENDIX B
                                                                                                                       Page 2 of 2
                             RANDOM MOMENT TIMESTUDY ACTIVITY CODES FOR
                 CONNECTICUT’S COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM PROGRAM

                                                                                                     Included in Community     Number
                                     Activity Code Description                                           Based Medicaid        of RMS
                                                                                                      Administrative Claim?   Responses
(9) Outreach for Non-Medicaid Services is used for activities that inform individuals about
                                                                                                              No                 1
non-Medicaid social, vocational, and educational programs and how to access them.
(10) Facilitating Access to the Medicaid Program includes assisting an individual or family to
make application for Medicaid or referring them to the appropriate agency to make application,                Yes                4
as well as assisting an individual to maintain Medicaid eligibility.
(11) Facilitating Access to Non-Medicaid Programs includes assisting an individual or family
in applying for non-Medicaid assistance (e.g., food stamps, day care, and legal aid) and referring            No                 3
them to the appropriate agency to submit the application.
(12) Program Planning, Policy Development, and Interagency Coordination Related to
Medical Services is used for activities associated with developing strategies to improve the
                                                                                                              Yes                28
coordination and delivery of medical and mental health services to individuals and families and
for collaborative activities with other agencies to provide effective medical services.
(13) Program Planning, Policy Development, and Interagency Coordination Related to
Non-Medical Services is used for activities associated with developing strategies to improve the
                                                                                                              No                 17
coordination and delivery of non-Medicaid human services to individuals and families and for
collaborative activities with other agencies to provide non-Medicaid services.
(14) General Administration is used for activities that cannot be directly assigned to program
                                                                                                              Yes               208
activities.
(15) Not Scheduled at Work is used when the staff person being sampled is not scheduled to be
                                                                                                              No                108
at work.
(16) Invalid Response is used when the position is vacant, the sampled worker does not respond
                                                                                                              No                117
to the pollster, or the worker responds more than 48 hours after the observation moment.
        Total RMS responses                                                                                                     750
1
    RMS = random moment timestudy.
                                                                                                                                   APPENDIX C
                                                                                                                                     Page 1 of 2

CALCULATION OF CONNECTICUT’S COMMUNITY BASED MEDICAID ADMINISTRATIVE CLAIM FOR FISCAL YEAR 2004

            The Connecticut Community Based Medicaid Administrative Claim was calculated by:
            (1) subtracting the general administration, not scheduled to work, and invalid RMS responses from the RMS response total to
                determine the net RMS response total;
            (2) dividing the number of RMS responses by the net RMS response total to determine the net RMS response percentage;
            (3) multiplying the net RMS response percentage by the Medicaid eligibility rate to determine the allocable RMS response percentage;
            (4) multiplying the net RMS response percentage by the total Medicaid allocable cost base to determine the total claim by activity
                code; and
            (5) multiplying the total Community Based Medicaid Administrative Claim by activity code by the Medicaid administrative cost
                Federal financial participation (FFP) rate of 50 percent.

                                               Community Based Medicaid Administrative Claim Calculation 1
                                              Net                 Medicaid      Allocable                                       Medicaid
                                           Number of   Net RMS    Eligibility     RMS       Total Medicaid                    Administrative
                                             RMS       Response      Rate       Response    Allocable Cost   Total Claim by   Cost FFP Rate       FFP by
  RMS           Number of        RMS       Responses      %           %             %            Base        Activity Code          %          Activity Code
 Activity         RMS          Response
  Code          Responses          %           1          2           3         4=2x3             5            6=4x5                7            8=6x7
    1                58            7.73%        58       18.30%
    2                38            5.07         38       11.99
    3                74            9.87         74       23.34
    4                57            7.60         57       17.98       34.83%       6.26%     $149,387,577      $9,354,836          50%           $4,677,418
    5                24            3.20         24        7.57
    6                 5            0.67          5        1.58       34.83        0.55      $149,387,577        $820,600           50             $410,300
    7                 4            0.53          4        1.26
    8                 4            0.53          4        1.26      100.00        1.26      $149,387,577       $1,885,017          50             $942,508
    9                 1            0.13          1        0.32
   10                 4            0.53          4        1.26      100.00        1.26      $149,387,577       $1,885,017          50             $942,508
   11                 3            0.40          3        0.95
   12                28            3.73         28        8.83       34.83        3.08      $149,387,577       $4,595,358          50           $2,297,679
   13                17            2.27         17        5.36
   14               208           27.73          0       N/A
   15               108           14.40          0       N/A
   16               117           15.60          0       N/A
  Total             750          100%          317      100%         N/A         12.41%          N/A          $18,540,828          N/A          $9,270,413

            1
                Some values are rounded.
                                                                                                                       APPENDIX C
                                                                                                                         Page 2 of 2

In its response to the letter of deferral from the Centers for Medicare & Medicaid Services, the State agency said that it used State
fiscal year (FY) 2005 Medicaid eligibility rates because this rate information was not consistently collected from the 81 contracted
organizations before 2005. This Medicaid eligibility rate was not limited to the clients serviced by the specific 81 contracted
organizations whose costs were used to calculate the Community Based Medicaid Administrative Claim. Instead, it was based on the
type of health insurance coverage used by all 59,550 active clients served by 180 contracted organizations of the Department of
Mental Health and Addiction Services as of December 31, 2004, the midpoint of State FY 2005. The 34.83-percent Medicaid
eligibility rate comprised two groups of clients: 15,797 with dual Medicare and Medicaid coverage (26.53 percent) and 4,942 with
Medicaid-only coverage (8.3 percent). The State agency did not demonstrate that the December 31, 2004, rates were equivalent to
FY 2004 rates.

                            Connecticut Department of Mental Health and Addiction Services Clients
                                            by Type of Health Insurance Coverage

                                Type of Health Insurance                         Number of Clients        Percent
                  Medicare and Medicaid                                              15,797                26.53%
                  Medicaid                                                            4,942                 8.30
                   Subtotal                                                          20,739                34.83

                  Medicare                                                               7,992             13.42
                  State general assistance                                              10,292             17.28
                  Department of Mental Health and Addiction Services                    16,580             27.84
                  Health maintenance organizations                                         332              0.56
                  Other                                                                  3,615              6.07
                    Total                                                               59,550            100.00%
APPENDIX D
  Page 1 of 2
APPENDIX D
  Page 2 of 2
